<html>
<title> - USING EVIDENCE TO HELP LOW-INCOME INDIVIDUALS AND FAMILIES GET AHEAD</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                   USING EVIDENCE TO HELP LOW-INCOME
                   INDIVIDUALS AND FAMILIES GET AHEAD

=======================================================================

                                 HEARING

                               BEFORE THE

                    SUBCOMMITTEE ON HUMAN RESOURCES

                                 OF THE

                      COMMITTEE ON WAYS AND MEANS
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 17, 2015

                               __________


                            Serial 114-HR02

                               __________

         Printed for the use of the Committee on Ways and Means
         
  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
  
  
                           U.S. GOVERNMENT PUBLISHING OFFICE
21-282                          WASHINGTON : 2016                           
________________________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1671667956756365627e737a663875797b38">[email&#160;protected]</a>  


                      COMMITTEE ON WAYS AND MEANS

                     PAUL RYAN, Wisconsin, Chairman

SAM JOHNSON, Texas                   SANDER M. LEVIN, Michigan,
KEVIN BRADY, Texas                   CHARLES B. RANGEL, New York
DEVIN NUNES, California              JIM MCDERMOTT, Washington
PATRICK J. TIBERI, Ohio              JOHN LEWIS, Georgia
DAVID G. REICHERT, Washington        RICHARD E. NEAL, Massachusetts
CHARLES W. BOUSTANY, JR., Louisiana  XAVIER BECERRA, California
PETER J. ROSKAM, Illinois            LLOYD DOGGETT, Texas
TOM PRICE, Georgia                   MIKE THOMPSON, California
VERN BUCHANAN, Florida               JOHN B. LARSON, Connecticut
ADRIAN SMITH, Nebraska               EARL BLUMENAUER, Oregon
AARON SCHOCK, Illinois               RON KIND, Wisconsin
LYNN JENKINS, Kansas                 BILL PASCRELL, JR., New Jersey
ERIK PAULSEN, Minnesota              JOSEPH CROWLEY, New York
KENNY MARCHANT, Texas                DANNY DAVIS, Illinois
DIANE BLACK, Tennessee               LINDA SANCHEZ, California
TOM REED, New York
TODD YOUNG, Indiana
MIKE KELLY, Pennsylvania
JIM RENACCI, Ohio
PAT MEEHAN, Pennsylvania
KRISTI NOEM, South Dakota
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri

                       Joyce Myer, Staff Director

         Janice Mays, Minority Chief Counsel and Staff Director

                                 ______

                    SUBCOMMITTEE ON HUMAN RESOURCES

             CHARLES W. BOUSTANY, JR., Louisiana, Chairman

TODD YOUNG, Indiana                  LLOYD DOGGETT, Texas
TOM REED, New York                   JOHN LEWIS, Georgia
KRISTI NOEM, South Dakota            JOSEPH CROWLEY, New York
PAT MEEHAN, Pennsylvania             DANNY DAVIS, Illinois
GEORGE HOLDING, North Carolina
JASON SMITH, Missouri

 
                            C O N T E N T S

                               __________
                                                                   Page

Advisory of March 17, 2015 announcing the hearing................     2

                               WITNESSES

John Bridgeland, CEO, Civic Enterprises..........................     7
Joan Entmacher, Vice President for Family Economic Security, 
  National Women's Law Center....................................    40
David Muhlhausen, Research Fellow in Empirical Policy Analysis, 
  The Heritage Foundation........................................    27
Grover J. ``Russ'' Whitehurst, Director, Brown Center on 
  Education Policy, The Brookings Institution....................    18

                       SUBMISSIONS FOR THE RECORD

The Honorable Charles Boustany...................................    75
The Honorable Danny Davis, submission 1..........................    80
The Honorable Danny Davis, submission 2..........................    83

                        QUESTIONS FOR THE RECORD

American Evaluation Association, statement.......................    84
Campaign to End Obesity: Action Fund, statement 3/17/15..........    86
Campaign to End Obesity: Action Fund, statement 1/23/14..........    90
Campaign to End Obesity: Action Fund, statement 12/13............    92
Center for the Study of Social Policy, statement.................    96
H& R Block, statement............................................   102
Knowledge Alliance, statement....................................   121
National Association for Relationship and Marriage Education, 
  statement......................................................   123
Fishbein/Wollman/Biglan, statement...............................   131
Nurse-Family Partnership, statement..............................   139
Robin Hood Foundation, statement.................................   143
The National Campaign to Prevent Teen and Unplanned Pregnancy, 
  statement......................................................   148
  

  USING EVIDENCE TO HELP LOW-INCOME INDIVIDUALS AND FAMILIES GET AHEAD

                              ----------                              


                        TUESDAY, MARCH 17, 2015

             U.S. House of Representatives,
                       Committee on Ways and Means,
                           Subcommittee on Human Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:01 a.m. in 
Room B-318 Rayburn House Office Building, the Honorable Charles 
W. Boustany, Jr. [Chairman of the Subcommittee] presiding.
    [The advisory announcing the hearing follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                                
    Chairman BOUSTANY. The subcommittee will come to order. And 
I want to welcome everybody to today's hearing. Happy St. 
Patrick's Day to everyone.
    This is the second in our hearing series on welfare reform. 
And today we will explore what we know about the effectiveness 
of programs designed to help low-income families get ahead. We 
have a very talented set of witnesses with us to review what we 
know about current programs and how they perform, how we can 
improve that performance to help more families and individuals 
move up the economic ladder.
    But, unfortunately, as we will hear in today's testimony, 
while we all want to know about whether programs are working or 
not, and to what extent they are working, what we actually know 
is quite limited. We just don't have the data. According to two 
former White House officials--one Republican and one Democrat--
I quote--``Based on our rough calculations, less than $1 out of 
every $100 of government spending is backed by even the most 
basic evidence that the money is being spent wisely.''
    And among the few programs that have been rigorously 
evaluated, the evidence suggests most don't work, and don't 
meet the intended goals. According to nonpartisan experts, 
since 1990 there have been 10 instances in which an entire 
federal social program has been evaluated using the scientific 
``gold standard method'' of random assignment. And of those 10 
programs that were evaluated, 9 were found to have weak or no 
positive effects.
    Some programs do worse than just waste money; they may 
actually harm those they are meant to help. For example, the 
former Mentoring Children of Prisoners program was intended to 
support children with an incarcerated parent. However, one in 
five mentorships lasted less than six months, and research 
showed such short-term mentoring relationships reinforce 
feelings of insecurity and abandonment, likely leaving children 
worse off than they would have been without this so-called 
benefit. Another program designed to prevent juvenile crime 
actually increased the chances that participants were later 
incarcerated. And these are disturbing instances.
    Having and using data, data that would not only let us 
direct taxpayer funds to better uses, but prevent us from 
causing unintended harm to the very people we want to help, is 
critically important. Think about the information that many use 
every day to make the best decisions with their own money.
    For instance, if you're my age and your family's washing 
machine breaks, or you have a car that you want to buy, you 
might turn to Consumer Reports to find out a reliable 
replacement. You will be--at least have information to base 
your decision-making on. Many people might check online rating 
services to find the right phone or car for them in today's 
Internet age. In both cases, consumers have a wealth of data to 
compare one brand to another, and to make an informed judgement 
about where their money is best spent. Yet policymakers don't 
have the same sort of data about the effectiveness of 
government programs, which millions of families depend upon for 
both basic financial needs and for the hope of a better life 
for themselves and their children. And that is just not good 
enough. We have got to do better.
    We are left with more questions than answers. Is the money 
we are spending today on the best mix of policies and programs 
to help people get ahead? What are we spending money on now 
that could be better reinvested elsewhere to get better 
results? If we had more money to invest, where should we put 
it? More often than not, we just don't know the answers to 
these very basic questions.
    The bottom line is this: We need to evaluate every program, 
determine what works, and focus resources on effective programs 
so more people will benefit from these programs. Low-income 
individuals and taxpayers alike deserve programs that are 
effective in promoting opportunity and helping people improve 
their lives. This effort to fund what works is not about 
ideology or about cutting spending. It is about doing what is 
right, it is about a moral imperative, especially for those who 
need help the most, the help that we are equipped to give, but 
we need to make sure that that help is effective.
    So, I look forward to the testimony from our very 
accomplished witnesses today.
    And, with that, I will turn to my friend and colleague, Mr. 
Doggett, the ranking member, to make an opening statement.
    Mr. DOGGETT. Thank you so much, Mr. Chairman, and to our 
witnesses. I welcome the opportunity to explore evidence-based 
policies. Indeed, when I first arrived here on Capitol Hill, an 
old Capitol Hill staffer told me to remember that here, in 
Congress, every Member is entitled to their own facts. And, 
through the years, I found that to be increasingly true, that 
we operate in a largely fact-free environment, where ideology 
and perhaps political mythology really tends to predominate.
    If the question is whether comprehensive immigration reform 
will grow our economy, we have significant evidence. If the 
question is whether tax cuts pay for themselves or only add to 
our public debt, we have significant experience and evidence. 
If the question is whether human-induced climate change is a 
serious threat to America, we have significant scientific 
evidence. And yet, some feel the best policy is to deny it, to 
prohibit its study, and, in some places, even to prohibit 
uttering the words ``climate change,'' or ``global warming.'' 
Or, in the social service area, we have significant evidence on 
a program such as Abstinence-Only Education, that it is one of 
the best ways to increase teen pregnancy, rather than to reduce 
it.
    We have the facts. What is not--we are not lacking 
evidence. What we are lacking is political will to overcome 
ideology and rely and act on the evidence.
    We also have ample evidence regarding the most effective 
ways to deliver federal funds to accomplish purposes that we 
agree upon. If, for example, you want to increase the quality 
of public education, we have experience in Texas that if you 
send federal funds to the State of Texas and you have no 
federal guidelines, and no meaningful requirements that Texas 
use those dollars to accomplish the intended purpose, that the 
state will simply use the funds to fill its budget gaps and 
provide corporate tax breaks.
    And the same thing is true if the goal is to increase 
reimbursements to health care providers under the Medicaid 
program, that Texas will use all--or at least much--of the 
federal dollars provided not to accomplish the objective, but 
to fulfill its immediate budget needs. And, while Texas may be 
an extreme example, the experience that we have had with TANF 
and the way federal TANF monies have been used by the states to 
accomplish purposes other than lifting people out of poverty, 
Texas is not unique.
    The approach taken in the bill that is on the floor before 
us now--not today, but it has been there and it is set to come 
back--on education, if we repeal effectively the civil rights 
provision of the education--the secondary--Elementary and 
Secondary Education Act, Title I, and simply give that money to 
the states to do with as they wish, and not maintain effort, we 
see a decline in public education quality, not an increase.
    As for successful interventions that could come under the 
jurisdiction of this Subcommittee, I think there are several 
additional considerations that are important, as we hear from 
the witnesses.
    The first is that we look to the preponderance of the 
evidence. There will always be outlier studies. But the studies 
themselves need to be reviewed. And we need--just as we do with 
global warming information--to look at where is the 
preponderance of the evidence.
    The second consideration is that, by its very nature, 
evidence-based is longitudinal. It is historic. It will tell us 
how things have worked in the past. It will not necessarily 
incorporate innovative ideas. For example, we heard from Ron 
Haskins at our last hearing very compelling testimony about 
evidence-based support for the Nurse-Family Partnership 
Program, which I think we certainly need. But that is old 
evidence, and that doesn't mean that that partnership doesn't 
need to continue to innovate with technology, like use of 
Skype, use of other devices that might be available, short of 
actually having to send a nurse to each family.
    And then, that naturally leads to a third consideration, 
and that is the need for innovation, generally. While we want 
evidence-based policies, we need to allow, in our funding 
choices, for some new programs that innovate, that give us new 
ways to deal with these problems.
    And, finally, I think we have to keep into consideration 
that consulting is a multi-billion dollar industry in this 
town, and that there is an evidence-based consulting industry. 
They can bring much value, but we don't want to see dollars 
devoted only to studying what needs to be done; we want to 
actually do it. Because evidence is clear on one point: We have 
a widening gap of inequality in this country, and we need 
policies to address it. Thank you, Mr. Chairman.
    Chairman BOUSTANY. I thank the gentleman. Without 
objection, each Member will have the opportunity to submit a 
written statement and have it included in the record.
    And I also want to welcome our witnesses, remind them that 
limit--please limit your oral statements to five minutes. We 
have your written testimony. And, without objection, all 
written testimony will be made part of the permanent record.
    So, this morning we have some very distinguished witnesses 
here, who will give us the state of play with regard to 
evidence and how it is being used or not used in these various 
programs.
    Today we are joined by John Bridgeland, CEO of Civic 
Enterprises; David Muhlhausen, Research Fellow in Empirical 
Policy Analysis at The Heritage Foundation; Grover J. ``Russ'' 
Whitehurst, Director of Brown Center on Education Policy, The 
Brookings Institution; and Joan Entmacher, Vice President for 
Family Economic Security, National Women's Law Center.
    We welcome you all, and we look forward to a robust 
dialogue today. And, with that, Mr. Bridgeland, you may begin.

      STATEMENT OF JOHN BRIDGELAND, CEO, CIVIC ENTERPRISES

    Mr. Bridgeland. Thank you, Mr. Chairman, Chairman Boustany, 
Ranking Member Doggett, and other distinguished members of this 
Subcommittee. Thank you for the opportunity to testify today on 
the important subject of using evidence to inform budget and 
policy decisions that can expand opportunity for low-income 
individuals and their families.
    I am a senior advisor to Results for America, a non-profit, 
bipartisan organization committed to improving the lives of 
young people and their families through better data and 
evidence at all levels of government. I also draw my experience 
as former director of the White House Domestic Policy Council 
for President Bush, and a former member of the White House 
Community Solutions Council for President Obama.
    At Results for America, we believe all levels of government 
should follow three principles: first, build evidence about the 
practices, policies, and programs that achieve the most 
effective results; second, invest limited taxpayer dollars in 
what works; and, third, direct funds away from those efforts 
that consistently fail to achieve measurable outcomes. More 
than 100 local and national leaders, including U.S. Senators, 
support these principles.
    According to a 2013 GAO report, only 37 percent of program 
managers said an evaluation of their programs had been 
completed in the last five years. And another 40 percent did 
not know whether such an evaluation had even been conducted. 
The former OMB directors in our coalition estimate that only 
one percent of federal non-defense discretionary spending is 
backed by evidence. These and other statistics in my written 
testimony highlight the bipartisan opportunity to do more to 
ensure limited resources support solutions that improve 
outcomes for young people and their families.
    When I co-chaired the White House Task Force for 
Disadvantaged Youth in 2003, we discovered 339 federal programs 
administered by 12 departments and agencies at a cost of $224 
billion, annually. Although government was collecting data on 
how much programs cost, and how many people they served, we 
wanted to know more about how programs were helping to increase 
opportunity and improve lives. Where evidence was stronger, the 
President proposed state of the union initiatives that this 
Congress supported to help disadvantaged youth.
    We make the following specific recommendations to build on 
the bipartisan history of improving government performance.
    First, Congress should authorize agencies to invest one 
percent of their total discretionary funds for program 
evaluations, subject to congressional oversight, to improve how 
the other 99 percent of dollars in an agency are spent. The 
Administration's recent budget request seeks this authority for 
the U.S. Department of Labor, and also for a particular program 
within the Department of Health and Human Services. And other 
agencies should have it, too. If chief evaluation officers were 
appointed at each agency and held accountable, they would help 
create a stronger culture of using evidence to inform decision-
making.
    Second, government should create what-works clearinghouses 
at agencies to inform better decision-making, and signal the 
importance of evaluations. I know, from my own experience in 
working to address the high school dropout challenge, that the 
what-works clearinghouse and increasingly sophisticated data at 
the U.S. Department of Education and National Center for 
Education statistics have helped foster reforms that follow 
evidence and generate better results. High school graduation 
rates have reached an all-time high, nationally. And those who 
have disproportionately have had the lowest graduation rates 
are now driving the most significant gains.
    Third, Congress can encourage the use of rapid low-cost 
tools, including low-cost, randomized control trials to 
increase the effectiveness of social spending by using data 
already collected by the Federal Government to measure key 
outcomes of a particular program, rather than engaging in 
costly original data collection.
    Fourth, Congress should consider a tiered-evidence approach 
that gives higher levels of funding to grantees with better 
evidence of impact, and lower levels of funding to promising 
programs that need to be tested further. Because low-income 
youth and their families deserve supports that are truly 
helping them.
    Fifth, Congress should encourage programs to first improve, 
and eventually direct funds away from those that consistently 
fail to achieve outcomes. Bipartisan Head Start reauthorization 
required low-performing grantees to recompete for funding. 
There are other examples of other programs that consistently 
failed to boost opportunity for youth, and were finally 
eliminated. But too often, government is flying blind, or 
failing to use evaluations to expand, alter, or terminate 
programs.
    Finally, Congress should foster a spirit of innovation and 
learning, not simply pull the on or off funding switch when the 
evidence isn't clear. When I served on the White House Council 
for Community Solutions in 2011, we discovered that youth 
opportunity grants had been eliminated before an evaluation was 
completed. Evidence later showed the program had increased 
youth in school, employment rates, and hourly wages. Our 
council had lost a key tool, both to improve the lives of 
disconnected youth, and save taxpayers money.
    Our bipartisan Moneyball for Government book, and Ron 
Haskins's ``Show Me the Evidence'' book contain many 
recommendations to build evidence.
    Finally, our Results for America coalition is pleased to 
announce today our strong support for the Evidence-Based Policy 
Commission we understand Chairman Ryan and Senator Murray will 
be proposing, and for the bipartisan Social Impact Partnership 
Act sponsored by Congressman Young and Congressman Delaney. 
Given the opportunity gaps in our society, the millions of 
vulnerable children and families in our country, the time could 
not be better to put evidence at the center of policymaking. 
Thank you.
    Chairman BOUSTANY. Thank you.
    [The prepared statement of John Bridgeland follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. Whitehurst, you have five minutes.

   GROVER J. ``RUSS'' WHITEHURST, DIRECTOR, BROWN CENTER ON 
          EDUCATION POLICY, THE BROOKINGS INSTITUTION

    Mr. Whitehurst. Thank you very much, Mr. Chairman, Ranking 
Member, Members of the Committee. Let me tell you a story.
    In a career I had a couple of careers ago, I was a 
developmental psychologist working in Head Start centers. And 
one evening I went to a Head Start center at the beginning of 
the year to make a pitch for parents to sign up their kids to 
be in one of my studies. I saw a mom in the audience. And, as I 
was leaving the center in my car, I saw her walking down the 
road. She had her four-year-old, who she had brought to the 
center, in hand. She had a two-year-old in a stroller. She had 
a big bag of materials she had picked up at the meeting. And it 
was 85 degrees, and she was struggling.
    So, I offered her a ride home. She accepted. I thought it 
would be a few blocks. It was a couple of miles. I asked her 
had she walked all the way to the Head Start center with her 
kids. She said she had. I said, ``That's a long way to walk; 
why did you do it?'' And she said, ``I just want what is best 
for my babies.''
    I knew that particular Head Start center pretty well, and 
it was not providing what was best for her babies. I think 
there is a moral proposition. You stated it, Mr. Chairman, that 
we need to provide people who need help programs that work. And 
we are frequently not doing so. We need to use evidence to move 
in that direction. I have got some recommendations. I think 
they are very much in line with what Mr. Bridgeland has just 
said, and they speak to supply utilization and what the federal 
role is in using evidence.
    On the supply side, in keeping with comments already made, 
I think we need to fund the evaluation effort better. I think 
there needs to be a healthy set-aside in every significant 
funding program to allow that program to be evaluated. If we 
are spending only as we did in the U.S. Department of 
Education, less than one percent of the appropriation to find 
out what works, we are destined to be involved in a faith-based 
enterprise that is never self-correcting. So an evaluation set-
aside is important.
    I think we need independence for those who are doing the 
evaluations. Most federal evaluations are carried out by people 
who are responsible to and reporting to the political 
apparatus, and are in the same programs that are implementing 
the programs that need to be evaluated. That is a conflict of 
interest. I think we should give each federal agency an 
evaluation officer, and they have the--should have the 
independence we give to the inspector general in those offices.
    I think we need greater access to the--linking access to 
existing data sets, so we can speed up the rate of progress 
here. You know, Google conducts about 20,000 experiments a 
year. During the eight years I was in the U.S. Department of 
Education, we mounted about 20 experiments around education. So 
we need more. We need more quantity. One way to do that is to 
use existing data. It is there, we just don't have a way of 
putting it together.
    The Ryan-Murray Evidence-Based Policy Commission intends, 
if it is passed into law, to tackle that problem. I think that 
is perfect, that is the way we need to go. With regard to that 
Commission, I think its role could be expanded to serve some 
other functions, if it were a standing commission, and those 
functions lie in the realm of utilization.
    So we need to know what works. And we have some entities 
embedded in some agencies that are supposed to do that. But the 
issues with poverty and people in disadvantage are not easily 
siloed at agencies. They span agencies. And so I think it would 
be a great idea of the Commission were responsible for 
collecting and disseminating information on what works with 
regard to economic opportunity in ways that would inform 
policymakers, inform Congress, and inform the nation.
    And, in that regard, they might make an annual report to 
Congress indicating what works, what doesn't, what needs 
correcting. I think this would be useful, politically. Some of 
you may have been involved in trying to close the military 
base. You know how hard that is. Try to close a popular social 
program, and you will find a really tough problem. So some 
outside advice might be useful.
    On the federal role, just because something works, I don't 
think it is the federal role to push it down and to say that 
states or people have to use that particular service. I think 
the ideal role is to find out what works, provide information, 
and to provide incentives that it is utilized, that it would be 
utilized at the local level. And one way to do that is to 
empower consumers to shop for what they want.
    I am in favor of, rather than giving most of the money to 
states or localities, figure out a way to give it to 
individuals. The Earned Income Tax Credit is one way to do 
that. Vouchers are another way to do that. Food stamp is a 
voucher. And then provide the kind of information that, Mr. 
Chairman, you said you could get in Consumer Reports if you are 
buying a washing machine, provide that information to 
consumers, so they can spend those vouchers and those transfer 
funds correctly.
    I think, if you do that, you will generate a marketplace, 
and people will get not what has been decided at the state 
level that they should have, but they will get, for example, in 
child care services, what they need to serve their needs, and 
that will produce the kind of innovation and progress that we 
very badly need. Thank you very much.
    [The prepared statement of Grover J. ``Russ'' Whitehurst 
follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Chairman BOUSTANY. Mr. Muhlhausen.

  STATEMENT OF DAVID MUHLHAUSEN, RESEARCH FELLOW IN EMPIRICAL 
            POLICY ANALYSIS, THE HERITAGE FOUNDATION

    Mr. Muhlhausen. My name is David Muhlhausen, and I am a 
research fellow in empirical policy analysis in the Center for 
Data Analysis at The Heritage Foundation.
    Chairman BOUSTANY. Mr. Muhlhausen, that microphone on, if 
you don't mind.
    Mr. Muhlhausen. I thank Chairman Boustany, Ranking Member 
Doggett, and the rest of the subcommittee for the opportunity 
to testify today on evidence-based policymaking. The views I 
express in my testimony are my own, and should not be construed 
as representing any official position of The Heritage 
Foundation.
    My testimony is largely based on my book, ``Do Federal 
Social Programs Work?'' My spoken testimony will focus on four 
points.
    First, the effectiveness of federal social programs is far 
too often unknown. That is why the notion of evidence-based 
policymaking is so important to finding out what works and what 
does not work. The use of scientifically rigorous impact 
evaluations greatly improve policy decisions. The best method 
for assessing the effectiveness of federal social programs is 
large-scale, multi-site experimental valuations that use random 
assignment.
    Unfortunately, these scientifically rigorous studies are 
rarely done. When Congress creates social programs, the funded 
activities are intended to be spread out across the nation. For 
this reason, federal social programs should be assessed for 
their national effectiveness. While an individual program 
operating at a single site may undergo an experimental 
evaluation, this small-scale, single-site evaluation will not 
inform policymakers of the general effectiveness of the broader 
national program.
    The success of a single program that serves a particular 
jurisdiction or population does not necessarily mean that the 
program will achieve similar success in other jurisdictions or 
among different populations. Thus, small-scale evaluations are 
poor substitutes for large-scale multi-site evaluations.
    A multi-site evaluation that examines the performance of a 
program operating in numerous and diverse settings will produce 
results that are more--the policymakers. Multi-site 
experimental evaluations are the best method for assessing the 
effectiveness of federal programs. Yet, to date, this method 
has been done on only a handful of federal programs.
    Second, the Federal Government does not have a good record 
of replicating successful programs on a national scale. 
Policymakers and advocates often assume the social program that 
is effective in one setting will automatically produce the same 
results in other settings. This is a faulty assumption.
    For example, for the Center for Employment Training 
replication, the Federal Government attempted to replicate the 
successful outcomes of a youth job training program in San 
Jose, California in 12 locations throughout the United States. 
A multi-site experiment evaluation found that the Federal 
Government was unable to replicate the successful outcomes in 
these other sites. Just because an innovative program appears 
to have worked in one location does not mean the program can be 
effectively implemented on a larger scale.
    Third, policymakers should be mindful that federal social 
programs do occasionally produce harmful impacts on 
participants. However, social program advocates too frequently 
ignore these findings. Nevertheless, Congress should be aware 
of these harmful impacts. Here are just two examples.
    For the three-year-old--Head Start Impact Study, 
kindergarten teachers reported that the math abilities of the 
children given access to Head Start were worse than similar 
children not given access to the program.
    Students participating in school educational activities 
under the 21st Century Community Learning Centers program were 
more likely to have disciplinary and behavioral problems, such 
as getting suspended from school. Further, these students were 
less likely to achieve at high levels in class, and were less 
likely to put forth effort in English classes.
    Last, the adoption of the evidence-based policymaking is an 
important step in helping Congress become wise stewards of the 
federal purse. With the federal debt reaching staggering 
heights, Congress needs to ensure that it is spending taxpayer 
dollars wisely. The creation of the Evidence-Based Policy 
Commission, as proposed by Representative Ryan and Senator 
Murray, is a step in the right direction. I thank the committee 
for the opportunity to testify today.
    Chairman BOUSTANY. I thank the gentleman. Ms. Entmacher.
    Ms. Entmacher. Entmacher.
    Chairman BOUSTANY. Entmacher. Thank you. You may proceed.
    [The prepared statement of David Muhlhausen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

STATEMENT OF JOAN ENTMACHER, VICE PRESIDENT FOR FAMILY ECONOMIC 
             SECURITY, NATIONAL WOMEN'S LAW CENTER

     Ms. Entmacher. Mr. Chairman, Mr. Doggett, and Members of 
the Subcommittee, thank you for giving me the opportunity to 
testify today on behalf of the National Women's Law Center.
    Millions of women struggle every day to support their 
families and give their children a chance at a better life. And 
safety net programs work, and help them lift their families out 
of poverty.
    For example, the Earned Income Tax Credit lifted more than 
five million people, more than half of them children, out of 
poverty. SNAP, formerly food stamps, lifted more than 3.6 
million people above the poverty line. But the EITC and SNAP 
don't count as income under the official poverty measure, so 
the effectiveness of the safety net in reducing poverty is 
often underestimated.
    Research shows multi-generational and lasting impacts from 
programs that alleviate poverty. For example, the EITC 
encourages increased work, particularly among single mothers, 
and leads to higher wages. Moreover, children whose families 
receive more income from refundable tax credits are healthier, 
more successful in school, and have increased earnings as 
adults. Children whose families receive food stamps were 
healthier, more likely to graduate from high school, and more 
self-sufficient as adults. And SNAP is an increasingly 
important work support for low-income workers and their 
families.
    However, there are major gaps in safety net and work 
support programs. Temporary Assistance for Needy Families, 
TANF, is the core safety net for poor families with children. 
When it was enacted in 1996, 2 out of 3 poor families with 
children received assistance. By 2013, only 1 in 4 did. TANF 
benefits are insufficient to bring a family's income above 50 
percent of poverty in any state. So TANF does little to reduce 
poverty, or even bring children out of deep poverty. When 
millions of jobs disappeared in the great recession, the 
response from TANF was weak.
    When Congress overhauled the welfare program in 1996, it 
recognized that parents of young children need child care to be 
able to work. But federal funding for child care assistance has 
dropped below the level it was in 2001, taking inflation into 
account. And the number of children served is at its lowest 
level since 1998. Only one in six children eligible for federal 
child care assistance receives it.
    Mr. Whitehurst testified about a mother who walked miles to 
a Head Start center to give her babies what was best. I will 
take his word for it, that this center that they were going to 
was not adequate. The key question is, what should policymakers 
do in response?
    I think Congress and the George W. Bush Administration had 
the right approach when they reauthorized Head Start in 2007. 
They didn't turn it into a voucher program. We actually have a 
voucher program, CCDBG, and it was reauthorized last year on a 
bipartisan basis because it wasn't giving parents access to 
quality care. But what happened after the Head Start 
reauthorization was that measures were instituted to improve 
quality and accountability, as described in my written 
testimony. And the Obama Administration is continuing the 
efforts to try, learn from efforts, and hold programs 
accountable.
    But implementing and sustaining quality improvements takes 
adequate and stable resources. Budget cuts, short-term funding 
bills, and the threat of sequestration are not conducive to 
investing in quality. Here are a few examples of programs 
within the jurisdiction of the Ways and Means Committee where 
solid evidence calls for increased investments.
    One, make the improvements in the EITC and Refundable Child 
Tax Credits permanent. Failing to do so will push about 16 
million people, including 8 million children, into or deeper 
into poverty.
    Two, improve the EITC for childless adults, to increase 
their work participation and income. That is an idea with 
bipartisan support.
    Three, reauthorize the home visiting program. There is 
widespread evidence of its effectiveness, yet it is set to 
expire in just two weeks.
    And, third, provide adequate funding to implement the 
reforms in last year's bipartisan reauthorization of the child 
care program, so states can improve the health and safety of 
children and child care without cutting back on the number of 
children they serve.
    These things take money. Where can we find it? Well, we 
could subject tax expenditures to the same level of scrutiny 
that is being called for on social programs. According to CBO, 
the Federal Government spends 1.5 trillion--with a T--dollars a 
year on tax expenditures, more than it spends on Social 
Security, Medicare, or Defense. And the benefits, according to 
CBO, disproportionately go to the wealthiest households and 
large corporations. Trimming tax expenditures by just one 
percent equals 15 billion a year, or $150 billion over 10 
years. And careful scrutiny would likely produce additional 
savings.
    In short, we have evidence that works, and the resources 
necessary to make the investments that will help families get 
ahead.
    Thank you.
    [The prepared statement of Joan Entmacher follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Chairman BOUSTANY. Thank you. And, for the record, I want 
to mention that yesterday Representative Dave Reichert and I 
introduced the Home Visiting Extension Act of 2015. We are 
going to reauthorize that.
    Ms. Entmacher. Thank you----
    Chairman BOUSTANY. Because it is a program that is showing 
promise. And we are hoping to get data toward the end of the 
year to truly prove that case. So I just wanted to make sure 
that goes on the record.
    I think there is a lot of room for bipartisan agreement 
here. This is an area that we can make a difference in the 
lives of many Americans who are struggling. But I think it is--
we have a moral imperative to look at the facts, and to really 
start to make, you know, heads or tails--to make sense out of 
these programs, and what is working.
    And I could tell you my previous life was in medicine. I 
was a cardio-thoracic surgeon. And I remember in 1988 there was 
an article that came out in the New York Times looking at 
cardiac surgery programs in the State of New York. And the 
mortality and morbidity statistics were all over the map. And 
one of the finest institutions in New York State had some of 
the worst outcomes, based on that analysis. But it turned out 
that the analysis was faulty, because they weren't doing risk 
adjustment. And that particular institution was getting all the 
difficult cases.
    We have, I think, a moral imperative to look at the 
scientific basis behind this, and to get the data, get the 
evidence, and use it appropriately. Because, at the end of the 
day, those on this side of the aisle and those on this side of 
the aisle want to have programs that work. We owe it to the 
taxpayer and we owe it to those who are most in need.
    Mr. Bridgeland, in your testimony you laid out six points. 
You have talked at length in your testimony, and you described 
these in your chapter in Moneyball for Government. But--and 
these all make complete sense to me. I think they are common-
sense approaches. But, given your experience in the Bush 
Administration, and now, in your current capacity, working with 
Results for America on the Moneyball project, help us 
understand. What are the one or two steps we can start with to 
really get the ball rolling on this?
    Mr. Bridgeland. Well, first, let me say congratulations on 
the new information about the expansion of home visiting. We 
discovered David Olds in Baltimore actually built in evidence 
at the very beginning of the Nurse Family Partnership Program. 
Because he did that, because it was subject to randomized 
control trials, the program has been expanded in 31 states. And 
now $1.5 billion across the United States goes to help boost 
the life incomes--outcomes for newborn children, their mothers, 
their health, their employment.
    I would say that the nice thing about all the testimony, 
including your opening statements, is that we need to build an 
evidence base and be serious about it. Every sector in our 
country invests billions of dollars in research and 
development. You talk about Consumer Reports, trying to 
understand what is it that is going to actually help the people 
we are trying to serve.
    In 2005 I was contacted by the Bill and Melinda Gates 
Foundation and asked if we could look at a--the first-ever 
national cross-sample of the more than million young people in 
this country who drop out of high school every year. And we did 
a survey and we discovered remarkable things: that most could 
have made it; that there were significant life challenges that 
caused them to drop out; that they had big dreams, just like 
other children.
    And I think, Joan, you mentioned in your testimony the 
power of actually listening to the people that we are trying to 
help, to see what is the intersection between what a young 
person faces in school, and why they decide to drop out. And 
what does the evidence tell us about what will help them stay 
in school?
    I mentioned, obviously, investing one percent--and that is 
a significant investment. Imagine if, across every department 
and agency, we actually had one percent of funds, discretionary 
funds, invested in evidence base and evaluations. You would 
eventually have a Consumer Reports and an annual update to the 
nation on how programs across government are helping to serve 
low-income youth and families.
    Joan mentioned SNAP. I was completely taken by the 2014 
longitudinal study. Mr. Doggett, you mentioned the power of 
longitudinal studies. So SNAP not only helps address severe 
malnutrition, and give access to alleviate hunger, we now know, 
from a longitudinal study in the 1970s--tracked those who had 
the program to the present day--that high school graduation 
rates have increased by 18 percentage points, that the 
employment rates of the mothers is much higher, and that the 
welfare receipts are much lower.
    You talk about the moral and societal imperative, Mr. 
Chairman. I would just close by saying there is also an 
economic and taxpayer imperative. When the White House Council 
for Community Solutions, we discovered 6.7 million opportunity 
youth--young people disconnected from school and work, 
representing tremendous loss to--human capital--to the country, 
they cost taxpayers $93 billion every year if we fail to 
reconnect them. So there is a social, moral, and economic 
imperative to do better. Thank you.
    Chairman BOUSTANY. Yes. Longitudinal studies are important, 
because they go beyond just simply a snapshot.
    Mr. Bridgeland. Right.
    Chairman BOUSTANY. They give you real trends, and they 
allow policymakers to use that information for quality 
improvement.
    Mr. Whitehurst, I--one of the things that came out of that 
newspaper article in the New York Times about thoracic surgery 
programs was the creation of a database that 90 percent of 
cardiac surgeons participate in now. And I used that, and I had 
to fight some obstructionists. But in my early days of my 
practice, we used that to actually implement significant cost 
savings and quality enhancement in the hospitals where I 
worked, achieving a top 100 status in the country for our heart 
program.
    And one of the steps Mr. Bridgeland mentions in his 
testimony is setting up what-works clearinghouses at each 
agency to build evidence around interventions that are 
effective and those that are not. And you have done this. You 
have gone through this at the Department of Education. So could 
you talk to me about some of the challenges you faced as you 
went through this process?
    Mr. Whitehurst. I am glad to try to do that. There were 
significant challenges.
    The first was to convince people there was any reason to do 
this. There was an assumption that we know what works in 
education, we just need to spend on it. And, in fact, we knew 
almost nothing about what works. And that was one of the 
challenges of creating the what-works clearinghouse.
    Mr. Bridgeland and I were talking before the meeting, that 
Secretary Spellings for a while called it the nothing-works 
clearinghouse, because we were spending a lot of money on it, 
and weren't finding anything that worked. So the first 
challenge is convincing people that, actually, evidence is 
extremely important. And it is a first-order investment, if you 
are delivering social and education programs.
    The second challenge was to build something that was--could 
survive the almost-certain attacks that would come from those 
whose oxes [sic] were gored. And so, we couldn't have just a 
bunch of people sitting around a table, talking about it, and 
deciding, based on their own views, that this program works and 
that program doesn't. So we had to build a rule-based system 
that was reliable, such that anybody could take the same rules, 
and, if they were well trained, come to the same conclusions. 
And that wasn't an easy technical job.
    The third challenge was to create an interface to this 
information that people would actually access and use. And I 
think that continues to be a challenge for the what-works 
clearinghouse. I haven't been associated with it for six years 
now. It is better than it used to be, but it is still written 
more for researchers than it is for ordinary consumers.
    And I think the final challenge is to pull together and 
make some sense not only of whether particular programs or 
interventions work, one by one, but what is the appropriate 
policy stance to take with respect to those findings. And it is 
difficult for a Federal Government agency to do that, because 
you are going beyond strictly the information given to 
recommendations that are, essentially, political, as to what 
needs to be done with that.
    So, you know, I think that is a missing element here, and 
maybe is something that a Commission on Evidence-Based Policy 
could address, that an individual agency-based what-works 
clearinghouse could not. Thank you.
    Chairman BOUSTANY. Thank you.
    Mr. Doggett.
    Mr. DOGGETT. Thank you, Mr. Chairman. There is a new report 
out this morning from the Center for Budget and Public Policy 
Priorities, indicating that the safety net lifted 39 million 
Americans out of poverty in 2013.
    And I would ask that a summary of that report be made a 
part of that record.
    Chairman BOUSTANY. Without objection.
    [The information follows: The Honorable Mr. Doggett 
Submission]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Mr. DOGGETT. And let me ask you, Ms. Entmacher, about that. 
For all of the problems, the inefficiencies, and the need to 
seek improvement, what is the effect likely to be of having 
substantial cuts to that safety net program of the type that--
we will get shortly the Republican budget for this year--but 
the Republican budget for last year had, I believe, some 69 
percent of its cuts from these low-income programs, including 
the SNAP program we have heard about this morning. What would 
be the effect on the inequality gap that this country has 
already, and on those poor families, if we make those type of 
cuts in the budget?
    Ms. Entmacher. It is really frightening to contemplate what 
the effect would be. I mean the first thing we know is that 
cuts that focus on programs for low-income people would fall 
most heavily on women and children who are the large majority 
of poor people in this country, and the people who rely most on 
these safety net programs.
    I talked about deep poverty. These are families who are 
living with incomes below 50 percent of the poverty line. For 
many of them, Temporary Assistance for Needy Families does not 
exist. It is gone. The only thing they had when they couldn't 
find jobs during the great recession, and they couldn't get 
unemployment insurance because they didn't qualify, or it had 
run out, and they couldn't get TANF, all they had was SNAP. And 
SNAP helped. It really was effective, because it was 
automatically there when need increased. And during part of the 
great recession, benefits were increased, so at least these 
families could get food on the table.
    It is really frightening to imagine what will happen when 
that goes away. And we have heard--Mr. Bridgeland just talked 
about what a difference it makes to have children and people 
who are trying to get jobs have an adequate diet. You can't go 
to work if you are hungry, if your kids are hungry. You can't 
go to work with a child in tow. You can't, you know, take a 
baby to a job interview. You are not going to get hired. So we 
really need to maintain a strong safety net if we want families 
to get ahead.
    Mr. DOGGETT. And I suppose, just generally, the question on 
evidence-based evaluations is whether the goal is to enhance, 
to strengthen, to improve, see that the taxpayer's money is 
well spent, and we accomplish the maximum good, or whether it 
is the conclusion that it is just not worth spending any money 
in this area, and the goal is to terminate, cancel, and cut, 
which seems to be the approach taken in this unfortunate 
Republican budget.
    Let me ask you also--several of you referred to the family 
visiting programs, and I am pleased to hear for the first time 
that the chairman and the former chairman of this Committee 
intend authorization legislation. It was a real struggle to get 
the funding for that program through the next two weeks last 
year. We couldn't get more than another year extension. And now 
we are two weeks away from a program that has broad support, 
and all that is being suggested, unlike the permanent answer 
for health care providers in the proposed SGR fix, is another 
two years.
    Does this stop-start lack of certainty about a program that 
does enjoy broad support, evidence-based support--even though 
we don't have the final evaluation in that was originally 
incorporated in the legislation, we do have other evidence of 
it--what is the effect on programs like home visiting, family 
visiting, of approaching its funding in that way?
    Ms. Entmacher. Well, actually, Mr. Chairman, I am not as 
familiar with the home visiting program as I am with the Head 
Start program, where the National Women's Law Center went back 
and documented the effect of sequestration, which actually 
happened in 2013. And programs, first of all, had to turn away 
increased numbers of children. They had to cut back on the 
number of staff. They had to cut back on the supplies, books, 
and instructional materials they had for children. They had to 
cut back on the number of hours that they were open. And we 
know that additional instructional time is very important to 
children's success in these programs.
    So, having--you know, when we find what is important to a 
program's success, it is important to have both adequate 
resources and stable resources, so programs can improve.
    Mr. DOGGETT. Thank you.
    Chairman BOUSTANY. Before I turn to Mr. Young I just want 
to offer a little bit of clarification. We have heard some 
suggestion that this is all about a budgeting cutting exercise, 
and I cannot be more emphatic that it is not about simply that. 
We have a moral obligation, as policymakers, to help those in 
need, and to make sure that the programs that we are using 
taxpayer dollars for actually work, and get the intended 
effect.
    And we are not going to do this overnight; this is going to 
be a long-haul process, which I think has largely been 
neglected over a number of years. So we start with evidence, 
and we start with how to use it, and hopefully start to move 
the needle to getting effective programs to really help those 
who are in need.
    And, with that, I will turn to Mr. Young.
    Mr. YOUNG. Well, thank you, Mr. Chairman. This is an 
essential hearing. It is one that, frankly, I wouldn't mind if 
it lasted all day. I find it so important. I think members of 
staff and some of the other attendees would be less enamored of 
that idea. But I appreciate all of you being here today.
    So, our focus is, as the chairman said, trying to figure 
out how we can get the most return on our investment, to the 
benefit of the beneficiaries and, really, to the benefit of 
broader society. And so, let me emphasize the extent to which 
we could all benefit from focusing more on the evidence about 
what works, what doesn't work, rigorously evaluating all these 
programs in the future.
    I read Robert Putnam's book over the weekend, his new ``Our 
Kids'' book. He's a communitarian, he teaches at Harvard School 
of Public Policy, and has some interesting perspectives on 
different things. And I thought he made a compelling point in 
there. Perhaps I found it compelling because I just wrote a 
column on the very same topic, which will appear in National 
Review. And I know my good colleagues will be reading that in 
coming days.
    [Laughter.]
    Mr. YOUNG. But the point is, to distill it in sort of my 
language, I will borrow from John F. Kennedy, ``A rising tide 
lifts all boats.'' So I think, to the extent we can get the 
economy moving more quickly, that is the best thing we can do 
to benefit all our children, all individuals in this country, 
and so forth, whatever their circumstances.
    But some boats do need patching, right, to get them 
involved in this growth that we hope we will enjoy in the 
future. And, to the extent that we can get more of those boats 
rising, the tide will actually begin to rise faster, as more 
people get involved in productive activities, as they can make 
their own way in life, and realize their own human potential.
    So, that goes back to a point about using evidence. I 
actually think--and I am speaking only for myself in this 
regard--but if I have compelling evidence that a program works, 
I am prepared to spend more money on that program in the 
future, if it is a real positive ROI. So this could be a 
revenue-neutral exercise. I don't anticipate this to be a 
budget-cutting exercise. I actually think the argument becomes 
more compelling to invest in effective social programs in the 
future.
    Now, that will only be possible if we get our economy 
moving faster. It is going to require some structural changes 
to other policies, like tax reform. It is going to require that 
we make some very tough decisions related to making the largest 
programs of government solvent. And so we need some leadership 
from all sides on those issues. So they are all interconnected.
    What happens--I will pose this question to Mr. Bridgeland 
in my limited time remaining here--what happens when a program 
doesn't work? Is it improved, in your experience? Is it ended? 
Do we continue to fund it? Maybe you could share one example 
for speaking generally to that issue.
    Mr. Bridgeland. I just have to say Dr. Putnam is a member 
of our policy council, we work very closely with him. And ``Our 
Kids'' is actually a frightening indictment of the state of the 
access to the American Dream, and I hope required reading for 
all of us.
    Thank you for your question. I think, consistent with what 
the chairman and Mr. Doggett have said, we want to create an 
environment of continuous learning, and not too quickly just 
pull on and off switches. I think it is important to look at 
the quality and sophistication of the evaluations. But there 
are examples. I will give you one.
    I worked a lot in prison reform and with children of 
incarcerated parents. And this Scared Straight program had 
multiple evaluations across many sites, showing that those 
young people at risk have actually--entering the juvenile 
justice system--when they met with inmates the evidence showed 
that they had a 28 percent higher rate of committing crime, 
higher rates of recidivism. And the studies were sound, so 
sound that the U.S. Department of Justice actually issued 
guidance across the country that funding for Scared Straight 
ought not to continue.
    There was another program where I thought the evidence was 
strong, but the program could have been improved before it got 
eliminated. The Even Start Family literacy program was the 
subject of three national evaluations. It showed that those in 
the treatment group who actually had the literacy interventions 
with their parents did no better than the control group. That 
program went on to spend $1 billion over the next 8 years. And 
think about the opportunity cost to young people. I wish that 
investment had been made in the Reading Recovery program, 
which, since 1984, has reached 2 million young people, and 
boosted their literacy rate significantly.
    So, when the chairman talks about this isn't a budget-
cutting exercise, he is exactly right. It also can be a 
bipartisan exercise, looking at the programs that are 
effective, and then also those programs that clearly aren't 
working, and perhaps redirect funds from those programs into 
those that do.
    Mr. YOUNG. So, to take that term, ``opportunity cost,'' you 
are essentially saying that, by continuing to invest in a sub-
optimal program, we are actually--as any economist would view 
this--we are hurting----
    Mr. Bridgeland. Correct.
    Mr. YOUNG [continuing]. Other recipients of better 
programs. Thank you, and I yield back.
    Chairman BOUSTANY. Mr. Meehan.
    Mr. MEEHAN. Thank you, Mr. Chairman. I want to attach 
myself to the chairman's words underscoring that our objective 
here is not just simply to cut spending, but to find the most 
effective way we can use those resources.
    I had a great experience in an earlier, prior life as a 
county district attorney working with intervention programs. 
And many of these things do work, and it was attaching to those 
that can have an impact, as we are working through. But I also 
remember in college reading the institutional imperative. Once 
something is created in government, it continues to exist on 
its own. So, finding the sweet spot here is really a key thing. 
And I am intrigued by this discussion.
    One of the programs that I often hear discussed is the Head 
Start the early intervention with the children. My school 
teachers tell me that it is an effective program, and really 
important because, if they could do one thing, it would be to 
intervene at that age. But later--it catches up.
    Mr. Whitehurst, what is there about the program that is 
good, and what is problematic?
    Mr. Whitehurst. Actually, very strong research on Head 
Start, the National Head Start Impact Study, which was planned 
in the Clinton Administration, carried out in the Bush 
Administration, reported in the Obama Administration, 
nationally representative, every Head Start center was 
represented in the draw of participants, if they were over-
subscribed--that is, if there were more families who wanted to 
get in than not, and there was random assignment based on that 
over-subscription.
    There were some effects, modest effects, at the end of the 
Head Start year, whether it was for three-year-olds or four-
year-olds. But, in kindergarten through third grade, nothing. 
So, just no impacts at all----
    Mr. MEEHAN. And those students did not----
    Mr. Whitehurst. Do better.
    Mr. MEEHAN [continuing]. Ahead, they did not do better 
after third grade?
    Mr. Whitehurst. They didn't do better after kindergarten, 
and they were followed through third grade. And no positive 
effects. No difference between the kids who were randomized 
and--versus those who lost the lottery and had to get whatever 
they could get on their own resources.
    So, that is a great disappointment. I helped plan the 
study, and I thought we would find positive effects. We did 
not. And so it suggests, I think, that we need to look very 
carefully at that investment.
    Mr. MEEHAN. How do we--the problem when we are dealing with 
children at that critical age is we lose more if we continue to 
try to figure out what is work--what will--how do we find out, 
and do these kinds of testing in a real way, so that we can 
take advantage of the programs that work in a timely fashion?
    Mr. Whitehurst. Sure. I think that some states are leading 
in the effort to tie children's school readiness when they 
begin kindergarten to the experiences they had in center-based 
care during the pre-K period, so they can identify the centers 
that are doing a good job, and shut down the ones that are 
doing a bad job. I think that is important.
    I think if we knew that, and made that information 
available to parents, so they could shop for a good child care 
center, just as they can shop for a car or a cell phone plan--
--
    Mr. MEEHAN. But a lot of these are school-based. I mean it 
is very, very difficult to have a program that may or may not 
be consumed by the students.
    Mr. Whitehurst. Well, in the pre-school period, actually, 
most of the providers are not school-based. They are non-
profits, and some for-profits, and--who----
    Mr. MEEHAN. Well, that variable there, is that part of the 
problem, that you have got a lot of different providers 
operating them in different fashions?
    Mr. Whitehurst. I think certainly the variability in 
quality is a huge problem. We actually don't know much about 
it. This is an area in which we know almost nothing. We have no 
information systems, we don't collect data. And so we are left 
with people having strong views, but not a strong basis on 
which to improve what is out there.
    Mr. MEEHAN. I just have two more inquiries. One just 
generally for the panel, and then, Ms. Entmacher, I have a 
closing request for you.
    Is there--unfortunately, a lot of times we look at programs 
in isolation. And the children are being exposed to a broad 
spectrum of things. As we have said, the safety net has good 
parts and bad parts. How do you isolate and determine what 
works and what does not when you have an overall package of 
goods?
    Mr. Whitehurst. Well, you do it through a randomized trial, 
or the best approximation you can. So, with the Head Start 
National Impact study, all these kids were subject to and 
supported by the safety net. Some got access to Head Start, and 
very equivalent children and families did not. And so that is 
how you start to tease out the effect of the particular 
components of the overall safety net.
    This is not to say that pre-K for four-year-olds--that the 
service for four-year-olds is unimportant; it is very 
important. It is to say, however, that Head Start doesn't seem 
to be doing the job of preparing children for school as we 
think it does.
    Mr. MEEHAN. Mr. Bridgeland, you may answer that. But, Ms. 
Entmacher, I--one of the issues that concerns me when I look at 
this--and we looked at programs--the biggest factor, as I 
understand it, is a child growing up in a single-parent 
household. And that is the biggest challenge, because so many 
other factors impact it. What are we doing about the spouse who 
is not the caregiver, and responsibility on that part, so that 
there is a continuing obligation on the non-custodial spouse to 
play a role and be responsible for some of the outcomes for the 
children?
    Ms. Entmacher. Thank you. Actually, child support 
enforcement was one of the issues that I worked on starting 20 
years ago, when I first came to Washington. And the program, at 
that point, was very ineffective in helping get support from 
the non-custodial parent. And----
    Mr. MEEHAN. Effective?
    Ms. Entmacher. Ineffective. Fewer than one in three 
children who are in the program received any support from the 
other parent. And there was a long process. I testified before 
this Subcommittee on a number of occasions, talking about what 
was needed to improve the programs. There had been commissions 
that identified the problem of interstate child support 
enforcement. Parent moved to another state, state programs 
didn't have a way of tracking it.
    So, Congress addressed that issue with a number of mandates 
that required states to collect and share information; learned 
from states what were the best practices in collection, 
automatic wage withholding, required states to implement that. 
The improvements were part of the 1996 law. They had an effect, 
but not quite enough.
    In 1998 Congress looked at the incentives in the program 
and said, ``We need better performance indicators, and 
performance indicators that will drive collections for the 
hardest-to-serve children, children whose parents were never 
married, who were poor, and reward states for those 
incentives.'' That was adopted, the program continued to 
improve. And the biggest collection gains were for low-income 
children.
    Unfortunately, Congress let lapse some of the increased 
incentive rewards that had helped drive those performance 
indicators. But I think, you know, we are--you know, we have 
made progress in trying to get children support from both 
parents. But, clearly, it is much tougher to be both the 
primary breadwinner and caregiver, and we need to support those 
families.
    Chairman BOUSTANY. The gentleman's time has expired. We 
will go to Mr. Davis next.
    Mr. DAVIS. Thank you very much, Mr. Chairman, and let me 
thank you for calling this hearing.
    As one of the authors of the evidence-based provisions of 
MIECH, the home visiting program, I am delighted to have a 
discussion on how policy helps to shape decisions. I must begin 
by stressing that Congress should extend the MIECH program as a 
part of the upcoming doc fix, as we call it.
    In Fiscal Year 2014, home visiting programs served 
approximately 115,000 parents and children, 514 of whom engaged 
with the Southside Early Learning Network program in my 
congressional district, one of the six MIECH sites in Illinois. 
In addition to directly helping almost 1,000 parents and 
children in Illinois, a remarkable success of MIECH is the 
outstanding coordinated home visiting system in the state. We 
must continue to fund this historic investment in evidence-
based policy, and I am delighted to know that we are 
approaching reauthorization.
    I also mentioned two evidence-based programs on which I am 
working. In line with the goal of this hearing, I have a bill 
that requests the National Academy of Sciences to make 
recommendations to reduce child poverty, based on the evidence 
of what works. By charging the National Academy with 
recommendations, we take the politics out of it, and focus more 
directly on the science. This model worked well on criminal 
justice reform, and I think applying it to child poverty makes 
a great deal of common sense.
    Further, I have a bill that draws on what works in teen 
pregnancy prevention, to reduce teen pregnancies among foster 
youth to help delay pregnancy until the youth are ready to be 
parents. Nearly half of all teen girls in foster care have been 
pregnant by age 19, compared to only 27 percent of their non-
foster care peers. Moreover, youth in care are more likely than 
their peers to have a second pregnancy by age 19. Despite these 
numbers, federal child welfare policy lacks evidence-based 
interventions to help these youth delay pregnancy until they 
are ready to be parents.
    Ms. Entmacher, could you comment on this evidence-based 
approach, and how policy to support low-income youth and 
families through programs like home visiting, child poverty 
reduction, reduction, and teen pregnancy prevention [sic]?
    Ms. Entmacher. Yes. The evidence shows, just looking at the 
reduction in teen pregnancy, that there are, you know, 
effective interventions. Certainly providing family planning 
services free of cost to low-income people has been remarkably 
effective.
    And a recent evaluation of family planning services for 
low-income women found that not only was it effective in 
reducing unintended pregnancy, which was the primary goal, 
there were multiple other health benefits which produced cost 
savings that people who did not have multiple pregnancies that 
they did not want, they--the women were in better health, the 
babies that they did have intentionally were in better health. 
And, again, those early health outcomes helped them succeed 
better in life, as well as providing more economic security for 
their families, because they were able to avoid unintended 
pregnancy.
    On the other hand, as Mr. Doggett has indicated, the 
success of abstinence-only programs, you know, it was--you 
know, those programs have not been proven effective. So I 
think, clearly, that one of the provisions of the Affordable 
Care Act, you know, would ensure that contraceptive services 
are available. Some of the most effective provide long-term 
contraceptives, if that is what women want, so that they can 
truly intentionally decide when they are ready to have a baby. 
They cost a little more up front, but could be extremely cost-
effective in the long term. So I think this is why that 
provision is important, and supporting it is important.
    Mr. DAVIS. Thank you very much. And, Mr. Chairman, I am 
very pleased to hear you and other Members of the Committee 
emphasize that this is not a budget-cutting exercise, although 
we expect to receive, and I guess we may be receiving at any 
minute, the budget that is being proposed. And I can't help but 
remember that last year 69 percent of the proposed cuts would 
have come from programs that are designed to assist low-income 
individuals and families. So I appreciate your emphasis that 
this is not about budget cutting, but finding the best 
solutions and the best results.
    Chairman BOUSTANY. I thank the gentleman. Mrs. Noem, you 
are recognized.
    Mrs. NOEM. Thank you, Mr. Chairman. It is a very important 
hearing, specifically, because not only are we looking at our 
programs, but then we are trying to identify some solutions, 
and then hold the programs accountable to those solutions.
    I live in the state of South Dakota. Our state unemployment 
is around three percent, so very low. But I have portions of my 
state that have 90 percent unemployment. And those are mostly 
on Native American reservations that have struggled for decades 
to be successful and stimulate economic development and help 
their families get to a position to where they can truly 
provide for themselves and their children.
    And so, for me, this is critically important, that we not 
just continue to rubber-stamp programs, but that we evaluate 
them to see if they are fulfilling goals and actually helping 
people not just create a better situation for them and their 
children, but for their grandchildren, and their 
grandchildren's children, because that is how long these 
communities and these families have been in poverty and have 
struggled.
    And I was very interested to hear Mr. Whitehurst talk a 
little bit about how he had a vision for some federal programs 
that currently are operating right now changing to somewhat of 
a voucher system, just because what I have seen in South Dakota 
many times--is not only does a lot of the dollars in a federal 
program get eaten up administratively at the federal level, but 
if we send them to the states at times, the states can eat up a 
certain portion, as well, that doesn't reach people. And even 
if you send them to local governments, then a portion of those 
dollars are gone, and they never touch the individuals, 
particularly, that need it the most. And it is so watered down 
by the time it gets there, that it is not enough to truly make 
a difference.
    So, I was wondering if you would identify a program for me 
that you think really could work in that kind of a system, 
where it could be a program established by Congress or today 
that is working--or, not necessarily working, but funded--that 
could work better or be much more effective, potentially, as an 
individual voucher program.
    Mr. Whitehurst. Sure. The Elementary and Secondary 
Education Act is up for reauthorization. You know, I would like 
to see the federal dollars that currently go to states and 
districts to support low-income children, I would like to see 
that voucherized. A more popular term is a ``scholarship.'' But 
the point is that the money follows the student to a school 
that the parents want for their child. And--and this is an 
important ``and''--and that is accompanied by information that 
helps parents know where the good schools are, and provides 
access to them. I think that could be important.
    I would like to see Head Start work that way. The Child 
Care Development Block Grant program is an effective voucher. 
But by the time the states are done with it, there is often not 
enough money that gets to the parents for them to shop for 
adequate services. So they buy child care on the cheap, and 
there are consequences of doing that.
    There is roughly $22 billion a year that the Federal 
Government spends on early child care for the disadvantaged. 
But it is spread through over 40 programs. The money gets eaten 
up and distorted and pushed in directions that don't really 
help the families. And I think people can shop, if you give 
them the resources to shop, and information. And we get 
innovation out of that, that we don't get out of ossified 
government programs that will change, if they ever change, over 
a 25-year period.
    So, I--you know, my approach is to try to think of how a 
marketplace could solve the problem. It will be a marketplace 
that needs regulation and information, and sometimes won't 
work. But I don't think we tried that in a lot of social 
programs, and I think we should.
    Mrs. NOEM. Well, I think it is interesting, because, in 
some of the areas that I am speaking about, there is not 
necessarily those services there today. There may be an early 
childhood program that is failing right now, but there is not 
necessarily another entity there to create that kind of 
competition. But if there was children there, and families who 
had vouchers that could give their kids a choice of where to do 
it, there may be more services come into that area because of 
that situation.
    Mr. Whitehurst. Yes, I think so.
    Mrs. NOEM. And that is a definite change that I think would 
be generational.
    Mr. Whitehurst. Yes.
    Mrs. NOEM. Mr. Bridgeland, I would like to ask you, 
particularly. Do you think that programs, when they are 
established, have goals? And when they do have those goals, 
what percentage of them tend to stay true to the goals under 
which they were established? Or what is the percentage of 
failure rate?
    Mr. Bridgeland. I am so glad you asked that, because we 
talk so much about the power of evaluation and evidence. But 
when the performance assessment rating tool was developed by 
the Office of Management and Budget in 2003, we looked at more 
than 1,000 programs. And it wasn't just, ``Does this particular 
program have an evidence base?'' We actually wanted to know 
what is the concrete goal of the program, what is the strategy 
to actually meet that goal, what is the implementation plan, 
who will be managing this program, and then, what does the 
evidence tell us about the effectiveness of not just the policy 
and the practice, but the strategy to reach the goal.
    The other thing I wanted to highlight, to reinforce what 
Mr. Whitehurst said, and your excellent point about having 
these programs and policies actually reach children and 
families, is that when I was on the White House Council for 
Community Solutions under President Obama, we visited 36 
communities across the country, and we asked them, ``What do 
you need most from the Federal Government?''
    And, honestly, I expected people to say more funding. And 
in every single community they said, ``The eligibility 
requirements, the use of funds, the government oversight, the 
rules and regulations are paralyzing us. If we could actually 
have a more holistic approach, and look at these young people 
we are trying to help in a way that is not so siloed and so 
programmatic, we could do a better job boosting their 
outcome.''
    So, I think Russ's--Mr. Whitehurst's idea of having 
linkages between what-works clearinghouses across departments 
and agencies that look at the intersection of various programs, 
whether it is home visiting with early childhood, with dropout 
prevention programs, would be a more effective way for the 
government to analyze effectiveness.
    Mrs. NOEM. Thank you.
    Chairman BOUSTANY. Mr. Holding, you are recognized.
    Mr. HOLDING. Thank you, Mr. Chairman. The--Mr. Bridgeland, 
you have referenced in your answer to a previous question, you 
know, two programs that you found, Scared Straight and the Even 
Start family literacy program, as two that, you know, evidence 
showed, you know, were not working. What happened to those 
programs, at the end of the day?
    Mr. Bridgeland. Yes. So the Scared Straight program is 
still in existence, although the U.S. Department of Justice has 
issued guidance highlighting the evidence from the Campbell 
Consortium, Vanderbilt University, and a report to the Congress 
with 500 indications of the fact that this program resulted in 
a 28 percent higher rate of crime and recidivism than those in 
the control group.
    The Even Start family literacy program was the subject of 
three national evaluations, each showing that the children and 
the parents did no better, in terms of their literacy outcomes, 
than the control group. Congress went on to spend, over the 
next eight years, $1 billion on that program. It was finally 
eliminated. And, as I mentioned previously, it would be great 
if those funds, from the perspective of young people, had been 
redirected toward the Reading Recovery program, which 
evaluations have shown have significantly boosted literacy 
rates.
    Mr. HOLDING. You also referenced that you and your 
organization have looked at 1,000 other programs to evaluate 
what their goals are----
    Mr. Bridgeland. Yes.
    Mr. HOLDING [continuing]. You know, are there any evidence 
to suggest they are achieving those goals. You know, out of 
that, the 1,000 that you evaluated, what is the percentage that 
were successful and still going on, and what is the percentage 
that have been ended after a demonstration that they are 
unsuccessful?
    Mr. Bridgeland. So the part--the performance assessment 
rating tool examined more than 1,000 programs. And 19 percent 
were found to be effective. So less than one in five were found 
to be effective programs when examining their goals, strategy, 
implementation plan, and the evidence behind them. Our former--
--
    Mr. HOLDING. Do you have a dollar figure on the 81 percent 
that were found to be uneffective----
    Mr. Bridgeland. I will tell you----
    Mr. HOLDING [continuing]. In terms of the----
    Mr. Bridgeland [continuing]. Mr. Holding, I--it is, 
literally, billions and billions of dollars. I did co-chair the 
White House Task Force on Disadvantaged Youth, and we 
discovered 339 federal programs across 12 departments and 
agencies spending $224 billion every year. And really, the 
President had asked us to surface initiatives to help boost 
opportunity for low-income children and their families. And we 
were able to identify a number of programs. Home visitation was 
one of them, Nurse-Family Partnership. Some of the early Head 
Start programs had some evidence of effectiveness with some 
fade-out effects.
    But, unfortunately, many of these programs, we just 
couldn't tell from the evidence. We knew a lot about their 
cost, we knew a lot about how many people they served. But too 
often, we didn't know enough about what was the impact on 
opportunity----
    Mr. HOLDING. Is there any good exemplar of a federal 
program that has a mechanism within the program itself?
    Mr. Bridgeland. Yes.
    Mr. HOLDING. Where evidence is going to be continuously and 
rigorously reviewed? And, you know, that is the trigger to 
recommend continued funding----
    Mr. Bridgeland. Yes.
    Mr. HOLDING [continuing]. Or the trigger to recommend----
    Mr. Bridgeland. So the Trade Adjustment Assistance Act in 
the Department of Labor for community colleges is a tiered-
evidence approach, which basically builds in evidence, requires 
third-party evaluations, and then gives more funding to those 
programs that have better evidence. The Social Innovation Fund 
at the Corporation for National Community Service is another 
example, and the Workforce Innovation Fund.
    And I think both Chairman Boustany and Mr. Doggett 
emphasized the importance of creating an environment of 
innovation. You talk to social entrepreneurs who are solving 
these problems all across the country, they are building in 
evidence into the programs that--just as Congressman Davis had 
built in a mechanism for home visitation at the outset of the 
program. And it builds support for the program over time, and 
it also enables us to learn what works.
    Mr. HOLDING. And this is for the panel. Are there any 
examples in the private sector that you can think of that would 
be analogous that have good evidentiary-based review systems 
built within their program that you can throw out there?
    I believe someone mentioned they Googled, it is 20,000 a 
year. But some other----
    Mr. Whitehurst. Right. Well, there is a huge industry that 
serves industry, running quick, randomized trials to find--A/B 
comparisons, they are called--to find out--there are two ways 
of doing it--which one works better. And the tech industry does 
this all the time. They can do it, because we are sitting 
there, clicking, and it is--they have just got to do it two 
different ways, and see which works best.
    So, if you are--you see a big advertisement for a foot-long 
sandwich, or the nine-inch sandwich, or the four-inch sandwich, 
you can bet that has been tried, and they know which link 
that--the sandwich you are most likely to pay for. So it is 
endemic, particularly in the tech industry, that we don't do it 
in government or social services means that they learn and we 
don't.
    So we desperately need to infuse into the government 
provision of services the ability to collect that information, 
analyze it quickly, do A/B comparisons, and move forward.
    Mr. HOLDING. Thank you, Mr. Chairman.
    Chairman BOUSTANY. I thank the gentleman. Let's go to Mr. 
Lewis next.
    Mr. LEWIS. Thank you very much, Mr. Chairman. I want to 
thank each one of you for being here today.
    Could you tell me, members of the panel, what does the 
evidence show is the result of letting important safety net 
programs expire, elapse? Do we have any evidence?
    Ms. Entmacher. Well, I think the experience, particularly 
during the recession, but--of the increase in child poverty, 
and the number of children living in deep poverty, showed that 
TANF worked very differently in the late 1990s, when jobs were 
available, the Earned Income Tax Credit had been increased, and 
the combination of factors of the strong economy, work 
incentives, and, yes, some of the changes in TANF, increased 
the employment of single mothers, and led to a decline in child 
poverty.
    But when economic circumstances changed, jobs were harder 
to come by, jobs were disappearing, welfare mothers had to 
compete with people who had college educations who couldn't 
find jobs, either. And the safety net had disappeared.
    States--TANF is structured so that states are rewarded for 
cutting their welfare rolls. Even the work participation 
requirements are based on the number of TANF recipients that 
you have working over the number of TANF recipients. Well, in 
some places--and South Dakota is a good example--it is hard to 
find jobs for people. It is really tough. In a recession it is 
really tough. So, how do you keep your work participation rates 
up? You cut back the denominator. You don't serve the hardest-
to-serve people.
    And I know Mr. Haskins, who has testified many times before 
this Committee, has talked about the fact that there is a large 
group of what are often referred to as disconnected people, 
people who are not getting help from any--certainly not getting 
help from TANF, maybe getting a little help from SNAP. During 
the recession, the TANF Emergency Contingency Fund created jobs 
for people who couldn't find work. It was effective, but then 
it was abandoned.
    So, I think, you know, we need to see that we have our 
incentives right, and programs designed so they can quickly 
respond to people in need.
    Mr. LEWIS. Let me just ask--I know you all are experts--
this morning. Have any of you ever had the ability, had an 
opportunity to walk in the shoes of the people that depend on 
these safety net programs? I just want to hear from each one of 
you.
    Mr. Bridgeland. I will answer that, Mr. Lewis, and thank 
you for all you have done for this country for so many for so 
long.
    One of the areas I work a lot, I am co-chair with Ethel 
Kennedy of the Earth Conservation Corps, here in the Anacostia. 
We work with young people from Congress Heights and Anacostia 
and other areas, literally in view of the Nation's Capitol, who 
sometimes wake up to the sound of gunfire.
    Mr. LEWIS. It is a great program, thank you.
    Mr. Bridgeland. And just give you one example--because I 
have walked in her shoes, now, for 10 years--LaShante Moore was 
a teenage mother. She had three children, she was homeless, she 
was, literally, living on the streets of Washington, D.C., in 
view of the Capitol. The Earth Conservation Corps gave her a 
service year opportunity to come in and have a transformational 
experience that Crystal and I are going to have the opportunity 
to talk to you about tomorrow, Chairman Boustany, where she was 
able to not only see herself not as a problem to be solved, but 
a potential to be fulfilled.
    And to help clean up the Anacostia River, this group of 
young people from Anacostia literally brought the nation's 
symbol, the bald eagle, back to the nation's capital. They fly 
over our Capitol today because of these young people. Imagine 
the hope that that gives them. I have seen her intersection 
with welfare, I have seen her intersection with food stamps, 
SNAP, I have seen her intersection with a whole host of 
programs. And so we walk in the shoes of these young people 
from Anacostia every day.
    One issue I want to put on the--a subject of this 
distinguished subcommittee is there are 1.2 million homeless 
youth in the United States in public schools today. And, under 
McKinney-Vento there is an obligation to help them with 
homeless liaisons. And that is a huge area that I view as a 
silent epidemic within the larger epidemic of high school 
dropout, and I think we need to walk in their shoes. Thank you.
    Mr. LEWIS. Thank you.
    Mr. Whitehurst. Mr. Lewis, if it is a personal question, I 
don't think any of us have really walked in the shoes of 
somebody who is hungry. And I won't go there. I will say that I 
grew up relatively poor in a hard scrabble small community in 
the South, and everybody around me struggled. And I retain a 
strong sense of personal obligation to people who are having a 
tough time and need some assistance, and I think we need to do 
the best job we can to see that that assistance really helps 
them, rather than simply makes us feel good.
    Mr. LEWIS. Appreciate it.
    Mr. Muhlhausen. Mr. Lewis, I used to--in another lifetime, 
I used to work at a juvenile correctional facility in 
Baltimore, Maryland. And we would get young kids coming in who 
were detained for committing various crimes. And, with a little 
bit of structure in their life, many of these kids behaved very 
well. And we would just think to ourselves, why, you know, this 
kid here, he is--with a little bit of guidance, seems like a 
perfectly great kid to be around.
    But, as soon as he was released back into the community, he 
had no structure in his life, and he would end up getting re-
arrested again for various crimes, usually selling drugs on the 
street, and come back. And it was just a rotating door, where, 
as much as we tried to help him in the correctional setting, 
there was nothing we could do when he went back home and he had 
no structure in his life, somebody there, whether it was the 
parent, or some other person who could help give him guidance.
    And so, while I haven't walked in the shoes of the poor, 
as--in the question you say, I feel that, in many ways, and the 
case of my personal experience is that, you know, sometimes a 
supporting family is the best solution to all these problems.
    Mr. LEWIS. Thank you.
    Ms. Entmacher. Thank you. I mean I have spent a lot of time 
listening, talking to poor mothers, trying to understand the 
struggles that they are encountering. Personally, I know that I 
never have.
    I have lived on a very low stipend provided by a non-profit 
organization, and I tried to make it, you know, by eating a lot 
of peanut butter and day-old bread. Then I got sick. I went to 
a free clinic, and I got a prescription for an expensive 
antibiotic. When I went to fill it, I realized it was going to 
be, you know, a couple of weeks' pay, and I almost walked out, 
and then I realized, ``You're crazy. Call your parents,'' you 
know? ``You can afford it. You're sick. You need it.'' And the 
Bank of Mom and Dad, needless to say, came through. I got 
healthy, got--you know, got better, went back to school. I have 
never been really poor.
    My husband was hospitalized. While he was in the hospital, 
being treated for a condition that I later learned had a 50 
percent mortality rate, I got a note from the insurance 
company, saying, ``Oh,'' you know, ``this doesn't qualify for 
coverage.'' And so, I thought we would have to cover that 
emergency--you know, and at that point he had been in the 
hospital for five days. And that was very upsetting, of course. 
And--but I realized, okay, you know, my parents, his parents, 
our savings, we will cover whatever it takes and I will--you 
know, when I am stronger, I will fight with the insurance 
company to get it covered.
    But for some people, you know, without health care 
coverage, that is--you know, that is homelessness. That is 
hunger forever. That is a total disaster in their lives. So, 
you know, I have been fortunate. I haven't had to depend 
entirely on the safety net, which is why I feel really 
committed to try to make sure that those supports are available 
to other people.
    Mr. LEWIS. Well, I want to thank each one of you for your 
response.
    And, Mr. Chairman, I want to thank you for holding this 
hearing, and being so liberal with the time.
    Chairman BOUSTANY. I thank the gentleman. Let's go to Mr. 
Reed next.
    Mr. REED. Well, thank you, Mr. Chairman. And I will follow 
up on Mr. Lewis's question about personal experiences. And I 
think it is clear that we bring all of our life experiences to 
this issue, in particular. And you know, being on the 
Republican side, sometimes I am accused of being part of the 
groups that are coming from the--the people that are born with 
silver spoons in their mouth. And I can assure you, being the 
youngest of 12 whose father passed when I was 2, and I had a 
single mother raise 6 of us in the household that were left, 
that was not the case. But----
    Mr. CROWLEY. Tom, I think you had several spoons in your 
mouth, just----
    [Laughter.]
    Mr. REED. I used to. I am down 110 pounds. That is why Mr. 
Crowley is picking on me.
    Mr. CROWLEY. What a set-up I gave you.
    Mr. REED. Thank you very much. And he is a good friend over 
there.
    So, I am committed to this issue, too, because you are 
really talking about a core issue in America. And so, I am 
interested in hearing from you, our experts here today, from 
the point of view from the social worker on the front line. 
And, Mr. Muhlhausen, I believe, with your experience at the 
juvenile detention facility, other folks who have done 
research, you have talked with numerous people on the front 
line.
    And what I am very interested from you--and we will start 
with Mr. Muhlhausen, possibly--is what do they feel is how they 
are judged, whether or not they are effective when they are 
dealing with the government bureaucracy out of Washington, 
D.C., or in the State of New York, where I am from, Albany, or 
our county seats in the relevant 11 counties I represent? How 
do they feel they are judged? What is the metric that they have 
to adhere to, presently? And is that the right metric we should 
be creating, in their mind set, on a front-line basis? Or is 
there something better we could do? Do you understand the 
question?
    Mr. Muhlhausen. Yes. Well, I--my experience is the metric 
that was used was getting the day without having--getting 
through the day without having a major incident, just making 
sure that nobody was hurt, that the facility was secure. And 
you are so focused on that, that you are not always able to 
take the long-term perspective of, ``How can I actually change 
the lives of these troubled youth?''
    And one of the things that profoundly impacted me was that 
we were told we were implementing a program called Therapeutic 
Communities at this correctional facility, and that it was 
proven to work in randomized experiments. And we were trained. 
We had about two days of training, and that is about it. And 
when I left the job and I came to Washington, D.C., I went up 
and I started to research the literature on Therapeutic 
Communities. And I found that we were in no way implementing 
the program that was in the literature. We were barely getting 
by with what we were implementing, and it was poorly 
implemented. And--but we were able to tell the state 
legislators that we were running an effective program, because 
it was based--it was evidence-based, it was based on a program 
that was proven to work, even though we were poorly trained.
    So, I think your answer is, you know, it is tough when you 
are on the day-to-day front line. The thing about the long-
term--when you are just trying to get through the day and make 
sure that everybody is safe, in the case when I was--when I 
worked in juvenile corrections.
    Mr. REED. So maybe Mr. Whitehurst will go there.
    Mr. Whitehurst. I don't know a lot about front-line social 
workers. I do know a fair amount about front-line teachers and 
child care workers. And I think one of the problems in that 
industry, if you think of it as an industry, or willing to 
think of it that way, is there aren't any measures of 
effectiveness. Whereas, we know that there are great pre-K 
teachers and terrible pre-K teachers, and family child care 
providers who do a great job and a terrible job, and they are 
all treated the same way.
    And, you know, I would love to see a system where, you 
know, if somebody is working in the criminal justice system, 
there are metrics that indicate whether you are being 
successful or not. And if you do a great job, you can make a 
living wage, and if you are not doing a great job, you can go 
do something else.
    Mr. REED. Well, before we go there, Mr. Chairman, that is 
something I would like to explore and go on record here.
    You know, one of the things I think we forget in 
Washington, D.C. is we issue these edicts, or these standards 
from afar, from the ivory tower. I think we really need to 
reach out to the people on the front line and say, ``Okay, how 
would you judge yourself to say if you are effective or not in 
impacting lives in a positive way,'' and then hold people 
accountable to their own metrics. I think that is the best way 
to go about this.
    And in my last few minutes, Ms. Entmacher, I read your 
testimony with interest. And there is 80 programs that we are 
essentially talking about here today that have been summarized 
in the material. You talk a lot about what works. Identify to 
me one program that doesn't work, from your point of view.
    Ms. Entmacher. Well, I think, actually, Mr. Muhlhausen--I 
looked at the testimony from an earlier hearing on a similar 
subject that this Subcommittee had. Marriage promotion--I think 
it was Mr. Meehan who talked about, you know, single-parent 
families having----
    Mr. REED. Because you talked a lot specifically about 
programs in your----
    Ms. Entmacher. Yes, yes, okay. Well, marriage----
    Mr. REED. So the marriage promotion program?
    Ms. Entmacher. Marriage promotion programs.
    Mr. REED. I am not familiar with them.
    Ms. Entmacher. Yes, there is----
    Mr. REED. Oh, just those general programs. Is there an 
actual program that you could point to that would help me to 
show a program that doesn't work, from your point of view?
    Ms. Entmacher. Yes. There is money specifically--well, 
allocated in TANF for states to run marriage promotion 
programs. There is specific funding for it. It was evaluated. 
And Mr. Muhlhausen testified about it in earlier testimony to 
this Subcommittee. And the results found that it did not 
increase marriage rates in any site, which was the program's 
primary goal. Of course, programs can have benefits beyond a 
primary goal, one of which could have been the relationship 
between couples, so that they could work together more 
effectively to parent.
    But, as Mr. Muhlhausen found, in only one site, Oklahoma, 
were there any positive benefits in the couples' relationships. 
And, in several sites, there was actually harm done, and there 
was more conflict between the couples. So, you know, again, an 
interesting and worthy goal, but the evaluations indicated that 
it wasn't working.
    Mr. REED. Thank you. And so, from what I heard from that 
testimony is that the marriage promotion programs are something 
we should not support and go forward with.
    Ms. Entmacher. Yes.
    Mr. REED. Thank you. All right. With that, I yield back.
    Chairman BOUSTANY. Thank the gentleman. Let's go to Mr. 
Crowley next.
    Mr. CROWLEY. Mr. Chairman, thank you for holding this 
Committee hearing today. And, aside from my teasing of my 
colleague from New York, who I have fond affection for, Mr. 
Reed, I also would like to note for the record that the lack of 
green at the table before us--the only thing green is the light 
indicating that I am able to speak right now. And I am--just 
want to make that point, Mr. Chairman.
    [Laughter.]
    Mr. CROWLEY. But I do find the focus of today's hearing 
very interesting, in that--using evidence-based experience to 
formulate policy. I think that is interesting.
    And, Mr. Muhlhausen, I am sure you--maybe you will find 
this interesting, as well. Do you have any thoughts about 
whether there is currently sufficient evidence about human 
actions significantly contributing to global warming? I don't 
expect you to answer that question.
    But it seems to me that, with so much scientific evidence, 
overwhelming scientific evidence, like from the United Nations 
Intergovernmental Panel on Climate Change, we should be 
pursuing government policies that reduce effects of global 
warming. Having said that, this hearing today--and I do 
appreciate the chairman calling this hearing--refers to funding 
that works. And I agree, we should fund programs that work.
    So, I--Ms. Entmacher, I appreciate the response you just 
gave to my colleague from New York, as well, in terms of what 
is or is not working.
    The federal safety net programs lifted 39 million Americans 
out of poverty, cutting the number in poverty nearly in half. 
Programs like Social Security, nutrition assistance, and tax 
credits for working families, like the Earned Income Tax Credit 
and the Child Tax Credit, actually make a difference in 
people's lives. They are keeping people from falling deeper 
into a policy, and, to me, a policy that is working [sic].
    So, we do need to fund what works, and that is fund the 
social safety net programs that help people, particularly low 
and middle-income families. EITC, the Child Tax Credit, are 
vital resources for millions of American families, many of whom 
are military families struggling to simply get by. Together, 
these two tax credits improve health, school performance, and 
provide a critical boost to a family that sets children on a 
path towards a much better way in life. Would you agree with 
that, Ms. Entmacher?
    Ms. Entmacher. Yes.
    Mr. CROWLEY. Thank you. I think that is why it is so 
important to keep supporting programs, and ensuring that they 
remain refundable for the low-income families that can benefit 
mostly from them.
    We will be talking a lot over this week and the weeks to 
come about budgets. I suspect, as we speak, there is probably 
press conferences about a budget that is being proposed by my 
Republican colleagues, and others, as well. A budget is meant 
to reflect our policies, as a country. In this case, as a 
party, to some degree, as well, and the same in terms of our 
budget, what Democrats have proposed. The budgets that have 
been performed [sic] by my colleagues on the Republican side of 
the aisle, I believe, have disproportionately cut programs that 
serve working families. I think that is a mistake.
    And if we are focused on what works, we should be 
supporting, not weakening, these programs that do work to help 
lift Americans in their lives. If these programs keep children 
from going to bed hungry at night, I think we should continue 
them. If they provide child care and assistance, and enable 
parents to work and support the families, I think we should 
support that. If they help to keep the lights on, and the heat 
on, or over--a roof and--over a family's heads, I think we 
should support those types of programs. To me, those are 
programs that are working.
    The research being done, and the focus on long-term 
outcomes, is important. And evidence-based policymaking is 
important. I agree. But let's not lose sight of the real goal, 
the goal of helping people, regardless of your political 
persuasion. And I did appreciate the answer that all of you 
gave, in terms of Mr. Lewis, in terms of walking in the shoes. 
I have been fortunate, as well, not to have walked in the shoes 
of people who are starving or hungry or without work or 
employment, nor my family. But I have tremendous empathy for 
folks who do--are faced with those crises, and I think we, as a 
government, should do what we can to help lift them out of 
that, and that includes helping parents work.
    One of the toughest things I think my constituents had--
have to make is when there is snow or no snow in New York 
State, and schools are closed, and parents are in a quandary as 
to what to do with their children, because they have no other 
means of child care but the school system. And it is painful 
for those individuals.
    So, I thank all the panelists today. In particular, I want 
to thank the chairman for calling--holding this hearing.
    Chairman BOUSTANY. I thank the gentleman. That concludes 
all the questions.
    I want to thank our panelists for their, really, tremendous 
testimony and answers to questions in this hearing, looking at 
expanding opportunity by funding what works. I think this 
created a great foundation for us to start with, to really look 
at how we are going to approach these programs.
    I also want to note that there may be additional questions 
that Members have, which is customary. And they will submit 
these in writing, and we will provide your answers to be part 
of the record, as well. We would hope that you can get those 
answers back to us within a two-week period.
    And, with that, the subcommittee stands adjourned.
    [Whereupon, at 11:41 a.m., the Subcommittee was adjourned.]
    [Questions for the record follow:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
